                             SENSITIVE BUT UNCLASSIFIED




                    UNITED STATES DEPARTMENT OF STATE
                AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


ISP-I-13-52                                    Office of Inspections                               September 2013




               Review of the Department of State
                       Ethics Program




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or the
Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by the
Inspector General. Public availability of the document will be determined by the Inspector General under the U.S.
Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.



                             SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2012 by the Council of the Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General (OIG) for
the U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

       •   Policy Implementation: whether policy goals and objectives are being effectively
           achieved; whether U.S. interests are being accurately and effectively represented; and
           whether all elements of an office or mission are being adequately coordinated.

       •   Resource Management: whether resources are being used and managed with
           maximum efficiency, effectiveness, and economy and whether financial transactions
           and accounts are properly conducted, maintained, and reported.

       •   Management Controls: whether the administration of activities and operations meets
           the requirements of applicable laws and regulations; whether internal management
           controls have been instituted to ensure quality of performance and reduce the
           likelihood of mismanagement; whether instances of fraud, waste, or abuse exist; and
           whether adequate steps for detection, correction, and prevention have been taken.

METHODOLOGY

        In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate,
circulated, reviewed, and compiled the results of survey instruments; conducted on-site interviews;
and reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                        i
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED




                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Acting Inspector General




                                       ii
                          SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


                                 Table of Contents
Key Judgments                                                                                  1
Context                                                                                        2
  The Office of Government Ethics                                                              2
  The Office of Ethics and Financial Disclosure                                                2
  U.S. Government Financial Disclosure Process                                                 3
  The Presidential Appointee, Senate Confirmation Process                                      3
  The Stop Trading on Congressional Knowledge Act                                              4
  Other Office of Ethics and Financial Disclosure Responsibilities                             4
Ethics Program Staffing and Financial Disclosure Reporting                                     6
The Department’s Financial Disclosure Reporting Process                                        8
  Identifying Who Must File and Maintaining Filer Databases                                    8
  Implementation of the Department’s Financial Disclosure Management System and
  Performance of Initial Reviews                                                              10
  Possible Future Developments in the U.S. Government Financial Disclosure Process            12
  Tracking Individuals Who Do Not File Required Financial Disclosure Reports                  12
Ethics Training                                                                               13
Ethics Agreement Process                                                                      15
List of Recommendations                                                                       17
List of Informal Recommendations                                                              18
Principal Officials                                                                           19
Abbreviations                                                                                 20
Appendix A – Office of Government Ethics 2013 Schedule of Important Ethics Dates              21
Appendix B – Office of Government Ethics Job Aid, A Tool for Ethics Officials, Confidential
Financial Disclosure                                                                          25
Appendix C –Office of Ethics and Financial Disclosure Instructions to Initial Reviewers of
Financial Disclosure Forms                                                                    27




                                      iii
                         SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Key Judgments
•   In a 2012 report, the Office of Government Ethics was critical of the Department of State’s
    Ethics Program, noting backlogs in processing financial disclosure reports and ethics
    agreements, problems with ethics training, and insufficient staff. The Office of Ethics and
    Financial Disclosure, a division within the Office of the Legal Adviser, had largely
    eliminated the backlogs by the end of 2012. However, the Office of Government Ethics
    report expressed concern about the Office of Ethics and Financial Disclosure’s limited
    resources to process a workload that is consistently higher than that of other agencies.

•   In 2012 the Department of State provided annual ethics training to less than 70 percent of
    those employees required to complete it. The Office of Ethics and Financial Disclosure
    implemented an online training module in late 2012 that will make ethics training more
    easily available to employees, but the Department of State does not have a definitive plan to
    increase the percentage of employees taking the training.

•   The Office of Ethics and Financial Disclosure is not systematically tracking ethics
    agreements to ensure that employees comply with the provisions. 1 The database used by the
    office is incomplete and does not include important relevant information.

•   The Department of State does not have a consistent definition of who is required to file
    confidential financial disclosure reports. This shortcoming has a negative impact on the
    entire ethics program.

•   In 2012 the Office of Ethics and Financial Disclosure implemented an online financial
    disclosure reporting process to assist filers in completing the required confidential and public
    reports. This system is still in the start-up phase.


All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
on areas where the OIG team did not identify problems that need to be corrected.

The review took place in Washington, DC, between April 15 and June 28, 2013. Associate
Counsel Harrison Ford (team leader) and Anita Schroeder conducted the review.




1
 Ethics agreements are promises by individuals submitting financial disclosure reports that they will undertake
specific actions to resolve actual or potential conflicts of interest.
                                            1
                               SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED


Context
The Office of Government Ethics

        From November 2011 through May 2012, the Office of Government Ethics (OGE)
conducted a review of the Department of State’s (Department) financial disclosure process for
Presidentially-appointed, Senate-confirmed (PAS) nominees. In September 2012, OGE issued a
report of that review. 2 OGE concluded that the Department has an extremely limited capacity to
respond to the increased demands on its ethics program during post-election periods. OGE also
noted that the ethics programs of other Federal agencies had higher ratios of staff to workload
than the Department. OGE made three recommendations:

           •   Revisit the ethics program staffing model to support the post-election period and
               address persistent backlogs for reviewing and certifying financial disclosure reports;
           •   Develop an action plan to ensure that covered employees complete annual ethics
               training by the end of each calendar year; and
           •   Reassess and document the ethics agreement process and consider ways to formalize
               tracking of compliance. Also, develop a plan to address the increased volume of
               ethics agreements during the post-election period and consider strategies to assign a
               higher priority to this aspect of PAS processing.

        OIG conducted this ethics program review as a followup to the OGE report. Since the
date of that report, the Office of Ethics and Financial Disclosure (L/EFD) has made a number of
improvements, but more needs to be done.

The Office of Ethics and Financial Disclosure

        L/EFD is responsible for administering the Department’s ethics program. Its primary task
is to provide ethics advice to all employees. It is also responsible for tracking filers, and
collecting, maintaining, and certifying around 5,000 public and confidential financial disclosure
reports each year. L/EFD also oversees annual ethics training for approximately the same
number of employees and initial ethics training for all new Department employees.

        L/EFD has taken steps in the last year to improve the Department’s ethics program. The
office implemented an online course for annual ethics training. In fall 2012, it rolled out an
online system for the submission of financial disclosure reports. On March 19, 2013, L/EFD
provided Adobe Connect training for initial reviewers of financial disclosure reports, providing a
general familiarization with the new online system. In April 2013, the office developed a video
on post-employment issues, which was made available through BNET, the Department’s
internally broadcast television station. On May 17, 2013, L/EFD rolled out more comprehensive
online training for initial reviewers of financial disclosure reports that is available from the
Foreign Service Institute. The May 17 training focused on technical review and conflicts
assessment. L/EFD also updated ethics materials and reassigned staff. L/EFD personnel told OIG
that they are actively supporting the culture of ethics in the Department.


2
    U.S. Office of Government Ethics. Post-Election Readiness Review, Department of State, September 2012.
                                             2
                                SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

        The Designated Agency Ethics Official (DAEO) and the Alternate DAEO (ADAEO)
supervise L/EFD. The office has eight full-time and two part-time attorneys, two paralegals, two
expert consultants, and four managerial and administrative staff. There is an additional vacant
paralegal position which, because of a hiring freeze, has not been advertised.

U.S. Government Financial Disclosure Process

         The Ethics in Government Act of 1978 sets forth a financial disclosure process in which
U.S. Government employees are required to provide information concerning their outside
interests and activities. Ethics officials review these financial disclosure reports to ensure that
filers’ outside interests and activities do not conflict with their official duties and that filers
comply with applicable conflict of interest laws and regulations. There are two types of reports:

    •   OGE Form 450, Confidential Financial Disclosure Report. In accordance with the Code
        of Federal Regulations (5 CFR 2634.904(a)) and the Foreign Affairs Manual (11 FAM
        611.3), the OGE Form 450 must be completed by employees or candidates for
        employment in positions classified at GS-15 or below or FS-01 or below, whose duties
        and responsibilities require them to participate personally and substantially through
        decision or the exercise of significant judgment, and without substantial supervision and
        review, in actions regarding contracting, procurement, administering, or monitoring
        grants; regulating or auditing non-Federal entities; or other activities that might result in
        conflicts of interest.

    •   OGE Form 278, Executive Branch Personnel Public Financial Disclosure Report. In
        accordance with 5 CFR 2634.202 and 11 FAM 611.3, Senior Executive Service, Senior
        Foreign Service, and other personnel whose salaries are a certain level or whose positions
        are of a confidential or policymaking nature must file the OGE Form 278.

         In July 2012, the Department had approximately 1,760 public financial disclosure report
filers, including 244 PAS officials, and about 3,700 confidential report filers.

The Presidential Appointee, Senate Confirmation Process

       With 244 PAS officials, L/EFD oversees ethics issues for the largest PAS program in the
Federal Government. 3 In addition, OGE personnel told the OIG team that the Department has
more filers with lengthy and complicated financial disclosure reports in its PAS program than
any other agency. L/EFD is required to examine each line of a financial disclosure report for
potential conflicts of interest or other ethics issues. The average report might include two or three
pages of information on private financial interests and activities. Some Department PAS
nominees have reports with hundreds of pages.

       For incoming officials, L/EFD works with the White House, Office of Presidential
Personnel, OGE, and other bureaus in the Department (Diplomatic Security, Human Resources,
and Management) to process nominees. This coordination is time-critical and time-intensive. The
primary role of L/EFD is to identify and rectify any potential conflicts of interest that a PAS

3
 The November 2012 report by the Working Group on Streamlining Paperwork for Executive Nominations gave the
number of full-time PAS nominees in the U.S. Government as approximately 1,150.
                                         3
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

nominee might have, including personal assets that might be affected by decisions made by the
filer while in office, arrangements for future employment, and positions held outside the
government. L/EFD approves the nominee’s OGE Form 278 before forwarding it to OGE where
it must undergo a separate certification process.

        During the review of OGE Form 278, L/EFD opens a dialogue with the nominee. The
office often discusses the individual’s financial interests with the filer’s financial advisors,
attorneys, accountants, or investment fund managers. L/EFD also requests an “issues
memorandum” from the bureau or post to which the nominee will be assigned. The
memorandum identifies specific companies whose financial interests are likely to be directly
affected by actions in which the PAS official will participate, as well as current and upcoming
issues in the country to which the individual will be assigned or in which he/she might be
involved, such as proposed public/private partnerships, intellectual property rights protection,
privatization, pending contracts, foreign investment disputes, etc. L/EFD compares the
information in the issues memorandum to the person’s financial interests and outside activities to
identify any potential conflicts of interest between these assets and activities and the duties of the
position the person will occupy. L/EFD also uses the issues memorandum for discussions about
potential conflicts of interest with senior Department and other agency personnel.

        Once the review of the financial report is complete, L/EFD drafts the ethics agreement
outlining steps the nominee will take to avoid or remedy conflicts of interest. Following the
confirmation of the nominee, L/EFD works with the individual to comply with the ethics
agreement within 90 days of the date of the agreement.

        There are other duties associated with the PAS program. L/EFD provides initial ethics
orientation to nominees, including one-on-one counseling, if possible. The office also provides
post-employment counseling before and after the departure of PAS officials and requires that
they file termination financial disclosure reports.

The Stop Trading on Congressional Knowledge Act

        In 2012, the Stop Trading on Congressional Knowledge Act of 2012 (STOCK Act)
increased ethics reporting requirements. The STOCK Act stipulates that government employees
who file OGE Form 278 must report certain investment transactions exceeding $1,000 within 30
days of receiving notification of a transaction and not later than 45 days after the transaction on a
OGE Form 278-T, Periodic Transaction Report. L/EFD reviews the OGE Form 278-T reports for
PAS officials and forwards them to OGE. For non-PAS OGE Form 278 filers, L/EFD reviews
and retains the OGE Form 278-T reports. In addition, the STOCK Act requires that any
individual required to file a financial disclosure report under the Ethics in Government Act sign a
disclosure statement with L/EFD within 3 business days after commencement of negotiation or
agreement regarding future employment.

Other Office of Ethics and Financial Disclosure Responsibilities

      The ethics process in the Federal Government requires that each Federal agency submit
numerous reports to OGE. These include annual training plans, annual questionnaires, reports of
payments of travel from non-Federal sources, lists of OGE Form 278 filers, lists of extensions

                                        4
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

granted to filers, and annual surveys of ethics officials. The 2013 Schedule of Important Ethics
Dates, which is issued by OGE, lists the required reports (Appendix A).

        L/EFD informed OIG that it receives approximately 200 general ethics inquiries every
week from Department employees. The office has created an electronic mailbox for incoming
questions and posts its telephone and fax numbers on the Department’s intranet. L/EFD also
maintains a readable, informative site on the Department’s intranet covering topics such as gifts,
conflicts of interest, outside activities, post-employment issues, and political activities.

        With the rollout of the Department’s online financial disclosure management system,
L/EFD took on the responsibility of training filers to use it. L/EFD recently initiated an online
training program for initial reviewers of the reports.




                                        5
                           SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Ethics Program Staffing and Financial Disclosure Reporting
        L/EFD manages a complex ethics program with minimal resources. The Department has
fewer ethics officials per public filer and per employee than any agency in the U.S. Government.
According to OGE, in 2012 the Department had over 120 public filers per ethics official. Other
agencies had no more than about 45, with most agencies having less than 20. In 2011, the
number of Department public filers per ethics official was more than 140, and the number of
public filers per ethics official for other government agencies ranged from less than 10 to about
50.

        The 2012 OGE report recommended that the Department revisit the ethics program
staffing model to support the post-election period and address persistent backlogs for reviewing
and certifying financial disclosure reports. OGE noted that, as of January 2012, the Department
had a backlog of more than 800 public and confidential financial disclosure reports for the 2010
filing period that had not been reviewed or certified since their receipt in 2011. OGE Form 450
reports are due on February 15 of each year (March 15 for Department filers in 2013) and OGE
Form 278 reports are due May 15 of each year. OGE reported that L/EFD did not expect to be
able to review or certify all of the annual public reports for the 2011 filing period that were due
May 2012 by the required certification deadline of July 2012.

        In early 2012, L/EFD began a concerted effort to eliminate the backlogs. L/EFD made
significant progress in reaching this objective, reducing the number of uncertified reports from
past years to 278. 4 L/EFD also updated employee work requirements statements, to include
completion of a specific number of financial disclosure reviews per week, and staff met weekly
to discuss reviews. As of June 2013, L/EFD was in the midst of processing both types of reports.

        Every 4 years, L/EFD experiences a surge as national elections, whether they bring about
new administrations or retain existing ones, result in the resignation of existing PAS officials and
the nomination and confirmation of newly-appointed ones. In 2011, L/EFD coped with this surge
by training 12 attorneys from other Department offices to review routine financial disclosure
reports, which allowed L/EFD attorneys to focus on more complicated PAS nominee reports.
Augmenting staff in this manner, L/EFD leadership expressed confidence that they could
“substantially handle” the current financial disclosure workload, although not all within the
regulatory 60-day time frame.

        Given current budgetary considerations, L/EFD’s low level of resources is not likely to
change. The remainder of this report discusses ways in which the Department and L/EFD can
continue to adopt practices that will help bring the ethics program into full compliance with
statutory and regulatory ethics requirements.

        As noted earlier, due to a hiring freeze, L/EFD has been unable to fill one vacant
paralegal position. There are only three paralegal positions within L/EFD, and this vacancy has
far reaching consequences. During the 2013 transition period, as with any other, the PAS
nominees receive the highest priority and attention, and it is vital to keep that process flowing
smoothly. The workload must be shifted to already overextended attorneys and other staff. The

4
 L/EFD reported that the total number of public and confidential financial disclosure reports filed during this time
period was 12,748.
                                            6
                               SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

increased duties slow the review of PAS financial disclosure forms and the management of PAS
ethics agreements, both of which are vital activities that were criticized by OGE in its report.

        Many of the attorneys in L/EFD are rotational; the paralegals are not. The corporate
knowledge of the paralegal staff cannot be replaced. Keeping the paralegal contingent fully
staffed is important to the continuing efficiency and productivity of the office.

Recommendation 1: The Office of the Legal Adviser should provide documentation for staffing
the vacant paralegal position and request that the Under Secretary for Management approve
filling the position. (Action: L)




                                       7
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


The Department’s Financial Disclosure Reporting Process
        There are a number of complex and time-consuming administrative aspects of the
financial disclosure reporting process, including identification of OGE Form 278 and OGE Form
450 filers, maintenance of the databases of filers, initial reviews of the reports, and tracking of
individuals who do not file reports promptly.

Identifying Who Must File and Maintaining Filer Databases

OGE Form 450

      OGE Form 450 filers are difficult to identify and the number of filers is hard to pin down.
Appendix B contains OGE guidance on how to determine if an employee must file OGE Form
450.

        The Department does not have a consistent count of employees who meet the OGE Form
450 guidelines. For example, in the 2011 annual program questionnaire that was submitted to
OGE, L/EFD listed the number of OGE Form 450 filers as 2,239. In the 2012 report, the number
was 3,160, excluding special government employee filers, and 3,189 including special
government employee filers. The number of special government employee filers was given as
100. In a July 2012 Department response to a preliminary version of the September 2012 OGE
report, L/EFD gave the number of OGE Form 450 filers as about 3,700. For 2011, OGE counted
the number of Department OGE Form 450 filers as 2,239 on one occasion and 2,475 on another.

        The Office of Management Policy, Rightsizing and Innovation (M/PRI) and the Bureau
of Human Resources are examining the possibility of automatic identification of Civil Service
and Foreign Service positions whose incumbents would normally be required to file OGE Form
450 reports using such criteria as position descriptions, critical performance elements, and work
requirements statements. The Department could also identify individuals who have contracting
officer warrants or qualify as contracting officer’s representatives. An individual performing
these duties is required to submit a financial disclosure report regardless of the position
encumbered. The Bureau of Human Resources and M/PRI are planning to maintain the
information the Department gathers on positions and employees required to file OGE Form 450s
on a human resources database, thereby easing the record-maintenance burden that currently falls
to L/EFD.

        However, there is not always a link between the duties shown in the position description
and the activities of an incumbent or between the training and expertise of an individual and that
employee’s duties. For example, someone with a contracting warrant might not be assigned
contracting officer duties for a period of time. Depending on rank and other duties, such an
employee might not be required to file a confidential financial disclosure report. Alternatively,
an individual assigned to a position in the GS-1102, Position Classification Standard for
Contracting Series, might not have all the qualifications or training. In such cases the post or
bureau might shift the contracting duties to another position whose incumbent has the necessary
qualifications but whose position has not been designated as one that requires a financial
disclosure report.


                                       8
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

        In addition to the lack of consistent correlation between employee activities and position
duties, about one-third of Foreign Service personnel are reassigned every year. About two-thirds
of Foreign Service personnel are overseas at any one time. Personnel reassignments in the
Department are frequent and any prospective database would require constant updating.

         A database would not eliminate the entire administrative burden. Other tasks now falling
to bureaus and posts as well as to L/EFD would continue. The bureaus and posts have to identify
the filers currently assigned to them and determine whether a specific employee’s duties meet the
guidelines for filing. L/EFD would continue to answer questions and help bureaus and posts
make such determinations.

       Nevertheless, the OIG team supports such a database and encourages the Department to
continue with its development. The database could be an initial step to reduce the administrative
burden on L/EFD of managing the OGE Form 450 process.

Recommendation 2: The Office of Management Policy, Rightsizing and Innovation, in
coordination with the Bureau of Human Resources and the Office of the Legal Adviser, should
identify positions within the Department of State having duties that require submission of
confidential financial disclosure reports and should maintain this information on a human
resources database for periodic updating by each bureau in the Department. (Action: M/PRI, in
coordination with DGHR and L)

        Bureaus and posts interpret in a variety of ways the instructions found in 5 CFR 2634.904
that define confidential filers and provide guidelines for who must file. Some Department
employees tasked with the identification of confidential report filers are concerned they are not
applying the guidelines correctly and stated they need clarification from L/EFD. More specific
guidance concerning who must file a confidential report would help the Department identify
prospective filers expediently, systematically, and appropriately.

Recommendation 3: The Office of the Legal Adviser should issue guidance and instructions
based on the regulations set forth in 5 CFR 2634.904 to help individuals, posts, and bureaus in
the Department of State identify employees who must file confidential financial disclosure
reports. (Action: L)

OGE Form 278

        The approximately 1,760 OGE Form 278 filers are reasonably well defined and generally
easy to identify. Once employees reach the level of Senior Executive Service or Senior Foreign
Service, they are repeat filers who must submit OGE Form 278 initially, annually and upon
termination. Other personnel, such as Schedule C employees and some special government
employees, must also file public financial disclosure reports. These individuals are usually
readily identifiable from their employment mechanisms and documents. Others, such as persons
serving in certain stretch positions, are less easy to pinpoint, but they make up a small proportion
of the total universe of OGE Form 278 filers.

        A personnel database of individuals automatically required to file public financial
disclosure reports would provide a starting point for L/EFD and the bureaus in identifying,
verifying, and tracking filers. As with the list of OGE Form 450 filers, the database would
                                       9
                          SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

require frequent monitoring and updating, but it would provide a basis for the identification of
filers each year. Such a database would assist in reducing the administrative burden of
processing OGE Form 278 reports.

Recommendation 4: The Office of Management Policy, Rightsizing and Innovation, in
coordination with the Bureau of Human Resources and the Office of the Legal Adviser, should
identify the individuals with Senior Foreign Service and Senior Executive Service rank,
Schedule C employees, and any others who are automatically required to file initial and annual
public financial disclosure reports, and should determine how to maintain this information on a
human resources database. (Action: M/PRI, in coordination with DGHR and L)

Implementation of the Department’s Financial Disclosure Management System and
Performance of Initial Reviews

        In fall 2012, the Department instituted the Financial Disclosure Management system
(FDM) for OGE Form 278 and OGE Form 450 reports. This electronic filing system was
originally used by the Department of Defense. It is designed to assist the filer in completing
financial disclosure reports by asking relevant questions and providing instructions and
examples. In addition, FDM prepopulates forms with data entered in previous years. Incomplete
or inaccurate data are flagged. Except in a few specialized cases, the system eliminates the need
for paper forms. Filer submission and reviewer approval trigger email notifications to ethics
officials for their action. Forms and actions are time-stamped. Filers can upload attachments and
include explanations regarding reported assets, gifts, and positions.

        Along with the implementation of the online filing system, L/EFD updated its financial
disclosure review process in a revision of 11 FAM 600. In an action memorandum signed by the
Under Secretary for Management on October 15, 2012, the Department described a standard
operating procedure that made bureau executive directors responsible for supporting the financial
disclosure process. Regional bureau executive directors were also made responsible for ensuring
that their posts complied. Although this shift of responsibility helped remove some of the
administrative burden of managing financial disclosure reports from L/EFD, these duties were
new to the bureaus and the directions were not well understood or universally interpreted. Also,
bureau personnel reported to the OIG team that they were not consulted before the revised FAM
was issued.

        Under the updated procedure, bureau executive offices were asked to validate the lists of
current OGE Form 278 and OGE Form 450 filers by November 9, 2012. Several bureaus noted
that they were not aware until two days before the deadline that they had to include contracting
officer’s representatives and government technical monitors in the list of OGE Form 450 filers. 5

        L/EFD conducted a number of activities designed to introduce and explain FDM to users,
issuing Department notices and cables and holding meetings with bureaus. In spring 2013,


5
  This requirement is not new. The Office of the Procurement Executive, Procurement Information Bulletin No.
2012-15 notes that all contracting officer’s representatives and government technical monitors must file a financial
disclosure report and must complete mandatory annual ethics training. Guidance in the Foreign Affairs Handbook,
14 FAH-2 H-150, dated December 20, 2005, specifies that employees involved in acquisition must make an annual
financial disclosure using Form OGE Form 450.
                                            10
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

L/EFD contacted all OGE Form 278 filers by email to provide guidance on using FDM, links to
training materials, and offers of assistance and held training sessions for initial reviewers.

       In spite of these efforts, there have been a number of start-up problems with the
Department’s launch of the FDM system. Some of the terminology is unique to the military,
including such wording as “general officers,” “Joint Ethics Regulations,” and “review chains and
Org Units.” FDM help and support sites directed Department users to Army email addresses.

        The Bureau of Information Resource Management (IRM) created user names and
passwords for FDM filers and initial reviewers under the same password complexity rules that
are in place for OpenNet, but many users still encountered problems logging into the system.
Bureau personnel reported to the OIG team that getting the user names and passwords was
complicated. Requests for user names required the signature of a supervisor. Some individuals
reported to the OIG team that the process of obtaining access to the system took a month to
complete. Other bureaus noted that the passwords were unnecessarily lengthy and complicated,
involving an embedded hidden character that made it difficult to copy and paste the password.
IRM reported to the OIG team that the bureau processed more than 1,000 requests to change
passwords.

        Another update to the financial reporting system was the emphasis on having posts and
bureaus identify initial reviewers who would complete a technical and conflicts review of each
form as provided in 11 FAM 614.7. L/EFD noted that an individual in the post or bureau would
know more about potential conflicts of interest than an attorney or paralegal in L/EFD. The
instructions to the posts and bureaus were to identify, where possible, a single initial reviewer,
generally a management official. The bureaus reported to the OIG team that the management
officials usually knew very little about the daily activities of personnel in their bureaus or posts
who dealt with technical issues such as treaties, international trade, and corporate business. Also,
in some large posts a single initial reviewer might have from 40 to 50 reports to examine. Some
posts and bureaus assigned the OGE Form 450s to one reviewer and the OGE Form 278s to
another, lessening the burden on one individual. Others, based on the word “supervisor,”
assigned the initial reviews to actual supervisors. 6

         Although L/EFD provided instructions to initial reviewers, the individuals interviewed by
the OIG team reported some confusion about these responsibilities. Some initial reviewers
looked carefully at each investment and outside activity. Others only glanced at them to see if
specific wording appeared that might indicate a conflict of interest. Most were unsure what to do
if they noted a conflict of interest. A list of the general questions that L/EFD asked initial
reviewers to consider is included in Appendix C. As of June 2013, L/EFD began to offer training
to initial reviewers for the 2014 filing season.

        Department personnel also reported to the OIG team that L/EFD did not provide
sufficient training on how to use FDM. They recommended that the Department provide more
technical instruction to filers on how to operate the system.



6
  As an Army system, FDM defines supervisors as initial reviewers. As noted, the Department used another method
to identify initial reviewers, but the FDM terminology retains the word “supervisor.”
                                           11
                              SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

         With the conclusion of the 2013 filing season, L/EFD has an opportunity to make
adjustments to FDM for the 2014 reports to reflect the specific needs of the Department,
including adapting the FDM terminology to fit Department usage, addressing training needs for
filers and initial reviewers, refining instructions to posts and bureaus on how to select initial
reviewers and perform initial reviews, and resolving issues with system passwords.

Recommendation 5: The Office of the Legal Adviser, in coordination with the Bureau of
Information Resource Management, should make adjustments to the Financial Disclosure
Management System for the 2014 filing season to reflect the specific needs of the Department of
State, including adapting the system’s terminology to fit Department of State usage, addressing
training needs for filers and initial reviewers, refining instructions to posts and bureaus on how to
select initial reviewers and perform initial reviews, and resolving issues with system passwords.
(Action: L, in coordination with IRM)

Possible Future Developments in the U.S. Government Financial Disclosure Process

       The STOCK Act requires that OGE develop a financial disclosure management system
and have it online by January 2014. OGE plans to have a new system for OGE Form 278 filers
ready by that time. This system will apply only to OGE Form 278, not to OGE Form 450.

        As of June 2013, OGE had not determined whether Federal agencies would be required
to use the new financial disclosure system for OGE Form 278 filing in 2014 or those using FDM
could continue to do so. There is also no information about the cost or the ability to migrate
existing data to the projected OGE system. OGE has suggested that the 23 agencies (with 6,800
OGE Form 278 filers) currently using FDM might be able to share certain costs of switching to
the new system, but as of the draft date of this report, OGE had not issued formal guidance.

        According to OGE, FDM was planned with the user and supervisor in mind. OGE
personnel noted that their new system was being designed from an agency management
standpoint so that, for example, more information would be available on the overall status of
financial disclosure processing and managers could generate status reports more easily. OGE has
requested and received suggestions and input on its new system from L/EFD.

Tracking Individuals Who Do Not File Required Financial Disclosure Reports

        The Department’s implementation of an automated financial disclosure system, whether
it is FDM or OGE’s new system, should make it easier to track individuals who do not submit
the required financial disclosure reports. The FDM system indicates the dates the report was
completed by the filer, reviewed by the bureau, and certified by L/EFD.

        Bureau personnel stated they were unsure of their responsibilities regarding the tracking
of non-filers. Some bureaus remind employees to complete the filing process; other bureaus are
under the impression that once they have notified potential filers and completed the initial review
of the submitted reports, they are no longer involved.

       Informal Recommendation 1: The Office of the Legal Adviser should clarify
       instructions to bureaus concerning tracking employees who do not file required public
       and confidential financial disclosure reports.
                                        12
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Ethics Training
        The September 2012 OGE report recommended that the Department develop an action
plan to ensure that covered employees complete annual ethics training by the end of each
calendar year, as required by 5 CFR 2638.701. Each year L/EFD prepares an ethics training plan
with a goal of 100 percent participation. The training plan for 2012 discussed training for new,
continuing, and retiring employees. The plan did not present specific internal control measures,
but it noted that L/EFD maintained a database for tracking compliance with training
requirements and that all covered employees filing financial disclosure reports would be
expected to comply with the annual training requirement.

       The 2012 agency ethics program questionnaire submitted by the Department to OGE
gave the following training completion rates:

                                        Ethics Training     Ethics Training        Completion
                                           Required            Received              Rate
 OGE FORM 278 Filers – PAS                          204                  108                53%
 OGE FORM 278 Filers – non-PAS                    1,352                  927                68%
 OGE FORM 450 Filers                              3,189                1,840                58%
 Total                                            4,745                2,875                61%
Source: L/EFD

        Since the date of the OGE report, L/EFD, with the assistance of the Foreign Service
Institute, has implemented an online ethics course to aid in providing training to covered
employees. The Department issues notices concerning ethics training, but does not follow up to
enforce the requirement.

        FDM has an “Ethics Training” tab for ethics officials to notify filers about ethics training
and to enter information when training has been completed. The Department is not currently
using this aspect of FDM. The process would require L/EFD to enter individual information on
training for each filer—a task that would impose an administrative burden on an already
overworked office. In future years, L/EFD could assign the task of entering training information
to the bureaus. It might also be possible to require that FDM users upload training certificates or
other proof of training as they complete their financial disclosure reports.

         The OIG team spoke with Department personnel about the institution of penalties for
covered employees who do not complete annual ethics training. One penalty under discussion
parallels that for users of the Department’s OpenNet system. The Department denies system
access and change of passwords to those who do not successfully complete the cyber security
awareness training course. In addition, users of OpenNet answer cyber security questions or read
hints as they log in each day. The OIG team and Department personnel have discussed the idea
of instituting ethics hints and questions as log-in reminders in addition to the cyber security
questions.

       Another possibility, which the OIG team discussed with the Office of the Under
Secretary for Management, would deny access to Department facilities (deactivation of the


                                        13
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

security badge) to individuals who do not complete annual ethics training. Withholding
promotions, awards, travel orders, and other training opportunities might also be considered.

       As with tracking the submission of financial disclosure reports, tracking ethics training is
made more complex by the loosely-defined and constantly fluctuating universe of covered
employees, particularly OGE Form 450 filers. Some of the methods and penalties described
above require accurate identification of covered employees. Uploading proof of training
completion into FDM may be feasible for OGE Form 450 filers, but the future use of FDM for
OGE Form 278 filers is currently in question.

Recommendation 6: The Bureau of Human Resources, in coordination with the Office of the
Legal Adviser and the Office of Management Policy, Rightsizing and Innovation, should track
individuals who do not complete annual ethics training and implement penalties when training is
not completed. (Action: DGHR, in coordination with L and M/PRI)




                                       14
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Ethics Agreement Process
        OGE recommended that the Department reassess and document the ethics agreement
process and consider ways to formalize tracking of compliance. Also, OGE suggested that the
Department develop a plan to address the increased volume of ethics agreements during the post-
election period and consider strategies to assign higher priority to this aspect of PAS processing.

        As defined in 5 CFR 2634.802(a), an ethics agreement is any oral or written promise by a
reporting individual to undertake specific actions in order to alleviate an actual or apparent
conflict of interest. The actions might include recusal, divestiture, resignation, establishment of a
blind trust, or request for a waiver. Individuals must complete the actions within a period not to
exceed 3 months from the date of the agreement. From January 2009 to June 2010, OGE
reported that Department PAS officials completed actions required by their ethics agreements in
an average of 127 days, although the OGE deadline is 90 days. OGE also criticized L/EFD for
taking an average of 177 days to notify OGE of compliance when the deadline is 93 days.

         L/EFD currently operates the Financial Disclosure Tracking System, an Access database
that allows L/EFD to track PAS nominees and maintain information on dates for financial
disclosures, confirmation, and other events; however, the system does not identify ethics
agreements. The system’s user interface does not have entries to indicate that an ethics
agreement exists.

        L/EFD does not have a systematic procedure for following up on ethics agreements or for
producing automatic reminders. According to L/EFD personnel, the office maintains information
on reminders in the comments section of the form, and it sends reminders to PAS officials
concerning compliance, but the data are not in a format to generate reports. Information on the
actions of a particular PAS official to divest assets or resign from positions is available in paper
form if it has been submitted to L/EFD, but there is no readily retrievable summary of whether
PAS officials have taken the necessary steps to comply with their agreements.

Recommendation 7: The Office of the Legal Adviser should adapt its database or design and
implement a new database to track compliance with ethics agreements. The system should
generate reports that show at a minimum whether an ethics agreement exists, the individual
provisions, the dates of reminders and communication between the Department of State and the
official, and the dates and actions taken by the official. (Action: L)

        L/EFD is not generating reports from the Financial Disclosure Tracking System to track
compliance. An automated tracking system would allow L/EFD to generate reports on the status
of the ethics agreement process. Whether L/EFD uses the current system or develops an
automated one, the office should generate reports to track compliance with ethics agreements. By
frequently reviewing these reports and identifying and eliminating bottlenecks in the process,
L/EFD would be able to decrease the compliance and reporting times.

Recommendation 8: The Office of the Legal Adviser should generate and review reports at
least weekly on the status of the ethics agreement compliance process. (Action: L)

       Among the activities that L/EFD has taken to improve its overall performance are weekly
staff meetings with the DAEO during peak periods. These meetings increase the involvement of
                                              15
                          SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED

upper-level management and provide frequent snapshots of office activity. The meetings are also
an opportunity for L/EFD to review the status of compliance with ethics agreements. The
meetings would be more beneficial if they included a review of the activities needed to ensure
that employees complete their ethics agreements within the specified time periods and the steps
taken by the Office of the Legal Adviser to ensure that its reports are submitted in a timely
fashion.

       Informal Recommendation 2: The Office of the Legal Adviser should, during peak
       periods, include in its staff meetings a review of the status of compliance with
       outstanding ethics agreements.




                                      16
                         SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: The Office of the Legal Adviser should provide documentation for
staffing the vacant paralegal position and request that the Under Secretary for Management
approve filling the position. (Action: L)

Recommendation 2: The Office of Management Policy, Rightsizing and Innovation, in
coordination with the Bureau of Human Resources and the Office of the Legal Adviser, should
identify positions within the Department of State having duties that require submission of
confidential financial disclosure reports and should maintain this information on a human
resources database for periodic updating by each bureau in the Department. (Action: M/PRI, in
coordination with DGHR and L)

Recommendation 3: The Office of the Legal Adviser should issue guidance and instructions
based on the regulations set forth in 5 CFR 2634.904 to help individuals, posts, and bureaus in
the Department of State identify employees who must file confidential financial disclosure
reports. (Action: L)

Recommendation 4: The Office of Management Policy, Rightsizing and Innovation, in
coordination with the Bureau of Human Resources and the Office of the Legal Adviser, should
identify the individuals with Senior Foreign Service and Senior Executive Service rank,
Schedule C employees, and any others who are automatically required to file initial and annual
public financial disclosure reports, and should determine how to maintain this information on a
human resources database. (Action: M/PRI, in coordination with DGHR and L)

Recommendation 5: The Office of the Legal Adviser, in coordination with the Bureau of
Information Resource Management, should make adjustments to the Financial Disclosure
Management System for the 2014 filing season to reflect the specific needs of the Department of
State, including adapting the system’s terminology to fit Department of State usage, addressing
training needs for filers and initial reviewers, refining instructions to posts and bureaus on how to
select initial reviewers and perform initial reviews, and resolving issues with system passwords.
(Action: L, in coordination with IRM)

Recommendation 6: The Bureau of Human Resources, in coordination with the Office of the
Legal Adviser and the Office of Management Policy, Rightsizing and Innovation, should track
individuals who do not complete annual ethics training and implement penalties when training is
not completed. (Action: DGHR, in coordination with L and M/PRI)

Recommendation 7: The Office of the Legal Adviser should adapt its database or design and
implement a new database to track compliance with ethics agreements. The system should
generate reports that show at a minimum whether an ethics agreement exists, the individual
provisions, the dates of reminders and communication between the Department of State and the
official, and the dates and actions taken by the official. (Action: L)

Recommendation 8: The Office of the Legal Adviser should generate and review reports at
least weekly on the status of the ethics agreement compliance process. (Action: L)



                                        17
                           SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: The Office of the Legal Adviser should clarify instructions to
bureaus concerning tracking employees who do not file required public and confidential financial
disclosure reports.

Informal Recommendation 2: The Office of the Legal Adviser should, during peak periods,
include in its staff meetings a review of the status of compliance with outstanding ethics
agreements.




                                      18
                         SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


Principal Officials
                        Title                    Name              Arrival Date
Designated Agency Ethics Official               Richard C. Visek           05/11
Alternate Designated Agency Ethics Official   Kathryn Youel Page           03/11




                                      19
                         SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
ADAEO             Alternate Designated Agency Ethics Official

CFR               Code of Federal Regulations

DAEO              Designated Agency Ethics Official

Department        U.S. Department of State

FAM               Foreign Affairs Manual

FDM               Financial Disclosure Management system

IRM               Bureau of Information Resource Management

L/EFD             Office of Ethics and Financial Disclosure

M/PRI             Office of Management Policy, Rightsizing and Innovation

OGE               U.S. Office of Government Ethics

OIG               Office of Inspector General

PAS               Presidentially-appointed, Senate-confirmed

STOCK Act         Stop Trading on Congressional Knowledge Act of 2012




                             20
                SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Appendix A – Office of Government Ethics 2013 Schedule of
Important Ethics Dates
January
Reminder: Agencies must complete an annual training plan for the current calendar year. This plan
does not need to be submitted to OGE. Covered employees are required to receive annual ethics
training before the end of the calendar year. (5 CFR § 2638.706(b) &
5 CFR § 2638.705)
1 Reminder: Today marks the beginning of the Public Financial Disclosure reporting period.
Agency ethics officials may want to distribute financial disclosure packets to public filers. (5 CFR §
2634.308(a))
1 Reminder: Today marks the beginning of the Confidential Financial Disclosure reporting period.
Agency ethics officials may want to distribute financial disclosure packets to confidential filers. (5
CFR § 2634.908(a))
31 DUE TO OGE TODAY: The Ethics Pledge Assessment is due to OGE today. Please follow the
submission instructions on the online assessment module.

February
1 DUE TO OGE TODAY: The Agency Ethics Program Questionnaire is due to OGE today. Please
follow the submission instructions on the questionnaire. (5 CFR § 2638.602(a))
15 DUE TO AGENCY ETHICS OFFICALS TODAY: All annual Confidential Financial
Disclosure reports are due to agency ethics officials today unless the filer has been granted an
extension. Remember to document the extension. (5 CFR § 2634.903(a) & 2634.903(d))

March
31 Reminder: The October 1, 2012 – March 31, 2013 period for reporting payments of travel
accepted from non-Federal sources ends today. Agencies should begin to prepare their 1353 travel
reports. Agencies may use either the OGE Form 1353 or the Standard Form (SF) 326. (31 U.S.C. §
1353)

April
Reminder: Unless further information is required, agencies should review and certify Confidential
Financial Disclosure reports within 60 days of receipt. (5 CFR § 2634.605(a))

May
3 DUE TO OGE TODAY: An updated list of Presidential appointees confirmed by the Senate
(PAS), Designated Agency Ethics Officials (DAEO), and other persons whose Public Financial
Disclosure reports are required to be forwarded to OGE for review and certification. Please submit
your updated list to 278tracking@oge.gov. (5 CFR § 2638.601)
15 DUE TO AGENCY ETHICS OFFICALS TODAY: All annual Public Financial Disclosure
reports are due today, unless the filer has been granted an extension. Remember to document the
extension on the cover page of the report. (5 CFR § 2634.201(a))
16 DUE TO AGENCY ETHICS OFFICALS TODAY: All annual Confidential Financial
Disclosure reports from filers granted 90-day extensions. (5 CFR § 2634.903(d))
24 DUE TO OGE TODAY: A list of extensions granted, and the length thereof, to PAS, DAEO,
and other persons whose Public Financial Disclosure reports are required to be forwarded to OGE for
review and certification. Agencies should continue to forward to OGE any extensions granted to

                                         21
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

PAS, DAEO, and other filers whose reports are required to be reviewed and certified by OGE. Please
submit lists to 278tracking@oge.gov.
31 DUE TO OGE TODAY: The 1353 travel report for payments of travel accepted from non-
Federal sources is due today. Agencies must submit either a positive or a negative report. The 1353
travel report should cover the period of October 1, 2012 – March 31, 2013. Please submit reports to
1353travel@oge.gov. (31 U.S.C. § 1353)

June
15 Reminder: The late filing fee now applies to annual Public Financial Disclosure filers who did
not submit their reports to agency ethics officials, unless the filer has been granted an extension.
Remember, checks should be made payable to the U.S. Treasury.
(5 CFR § 2634.704)

July
1 DUE TO AGENCY ETHICS OFFICALS TODAY: All annual Public Financial Disclosure
reports from filers granted first 45-day extensions. (5 CFR § 2634.201(f))
1 DUE TO AGENCY ETHICS OFFICALS TODAY: Today is the last day for filers to request an
additional 45-day extension to the Public Financial Disclosure deadline. Remember to document the
extension on the cover page of the report.
(5 CFR §2634.201(f))
1 DUE TO OGE TODAY: Agencies must submit a letter stating whether components currently
designated should remain designated for purposes of 18 U.S.C. § 207(c). Agencies need not reply if
their department or agency currently has no designated components and they do not wish to request
the designation of any component.
(5 CFR § 2641.302(e)(2))
15 Reminder: Unless further information is required, Public Financial Disclosure reports that were
submitted by the May 15 deadline should be certified by the agency. (5 CFR § 2634.605(a))
29 DUE TO OGE TODAY: The Public Financial Disclosure reports of PAS, DAEO, and other
persons whose Public Financial Disclosure reports are required to be forwarded to OGE for review
and certification are due today unless an extension has been granted. Please submit reports to
278tracking@oge.gov. (5 CFR § 2634.602(c))

August
1 Reminder: The late filing fee now applies to annual Public Financial Disclosure filers who were
granted 45-day filing extensions but have not submitted their reports to agency ethics officials.
Remember, checks should be made payable to the U.S. Treasury.
(5 CFR § 2634.704)
13 DUE TO AGENCY ETHICS OFFICALS TODAY: All annual Public Financial Disclosure
reports from filers granted second 45-day extensions are due today.
(5 CFR § 2634.201(f))
30 Reminder: Unless further information is required, agencies’ annual Public Financial Disclosure
reports that were submitted pursuant to a 45-day extension should be certified by the agency. (5 CFR §
2634.605(a))

September
13 DUE TO OGE TODAY: The Public Financial Disclosure reports of PAS, DAEO, and other
persons whose Public Financial Disclosure reports are required to be forwarded to OGE for review
and certification who were granted first 45-day extensions are due today. Please submit reports to
278tracking@oge.gov. (5 CFR § 2634.602(c))

                                        22
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

13 Reminder: The late filing fee now applies to annual Public Financial Disclosure filers who were
granted second 45-day filing extensions but have not submitted their reports to agency ethics
officials. Remember, checks should be made payable to the U.S. Treasury.
(5 CFR § 2634.704)
27 DUE TO OGE TODAY: The Annual Survey of Ethics Officials is due to OGE today. Please
follow the submission instructions on the survey.
30 Reminder: The April 1, 2013 – September 30, 2013 period for reporting payments of travel
accepted from non-Federal sources ends today. Agencies should begin to prepare their 1353 travel
reports. Agencies may use either the OGE Form 1353 or the Standard Form (SF) 326. (31 U.S.C. §
1353)


October
15 Reminder: Unless further information is required, agencies’ annual Public Financial Disclosure
reports that were submitted pursuant to a second 45-day extension should be certified by the agency.
(5 CFR § 2634.605(a))
29 DUE TO OGE TODAY: The Public Financial Disclosure reports of PAS, DAEO, and other
persons whose Public Financial Disclosure reports are required to be forwarded to OGE for review
and certification who were granted second 45-day extensions are due today. Please submit reports to
278tracking@oge.gov. (5 CFR § 2634.602(c))

November
1 Reminder: Only 61 days remain in the Financial Disclosure calendar year. Remember that
employees need to serve in a position for 61 days or more to file an annual financial disclosure
report. (5 CFR § 2634.204(a))
30 DUE TO OGE TODAY: The 1353 travel report for payments of travel accepted from non-
Federal sources is due today. Agencies must submit either a positive or a negative report. The 1353
travel report should cover the period of April 1, 2013 – September 30, 2013. Please submit reports to
1353travel@oge.gov. (31 U.S.C. § 1353)

December
31 Reminder: Today marks the end of the Public Financial Disclosure reporting period, except for
the reporting period of Part II of Schedule C and Part I of Schedule D of the OGE 278, which
continue up to the date of filing. (5 CFR § 2634.308(a))
31 Reminder: Today marks the end of the Confidential Financial Disclosure reporting period. (5 CFR
§ 2634.908(a))

Ongoing
To be sent to OGE:
Forward the following to your desk officer team at OGE as appropriate:
o Written designations by agency heads of new DAEOs and ADAEOs within 30 days of the
delegation of authority. (5 CFR § 2638.202(c))
o 18 U.S.C. § 208(b)(1) and (b)(3) waivers. (5 CFR § 2635.402(d))
o Requests for exclusion from the public financial disclosure reporting requirement for Schedule C
employees. (5 CFR § 2634.203)
o Requests for a special waiver of the public financial disclosure reporting requirement. (5 CFR §
2634.205)
o Requests for a waiver of restrictions of 18 U.S.C. § 207(c) and (f). (5 CFR § 2641.301(j))
Forward notice of conflict of interest referrals (OGE Form 202) to referrals@oge.gov.
                                         23
                            SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

Send requests for certificates of divestiture to the Director of OGE. (5 CFR § 2634.1005)

Forward PAS ethics agreement compliance documentation to OGE within the applicable time frame.
Please submit documentation materials to eacompliance@oge.gov.

(5 CFR § 2634.803; PA-12-03)
Notify OGE, via email at 278tracking@oge.gov, of a PAS official’s termination date as soon as
possible but no later than the day before the PAS official’s termination date.

Forward new entrant 278 reports, termination 278 reports, and 278-T reports submitted by PAS,
DAEO, and other persons whose Public Financial Disclosure reports are required to be forwarded to
OGE for review and certification. Please submit reports to 278tracking@oge.gov. (5 CFR §
2634.602(c))

Join the OGE Listserv if you are not already a member. Sign up here.

Within your agency:
Remind filers that deadlines are dates by which the forms must arrive in the agency ethics official’s
office, not dates by which forms must be postmarked.

Collect Public Financial Disclosure reports or Confidential Financial Disclosure reports from special
government employees. (DO-95-019)

Collect new entrant reports within 30 days when employees enter covered filing positions. (5 CFR §
2634.201(b) & 2634.903(b))

Collect termination 278 reports within 30 days when employees leave covered filing positions. (5
CFR § 2634.201(e))

Collect 278-T reports from employees in covered filing positions. (LA-12-04)




                                            24
                               SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED


Appendix B – Office of Government Ethics Job Aid, A Tool
for Ethics Officials, Confidential Financial Disclosure

      Determining Which Positions Should File A Confidential Financial Disclosure Report: A Worksheet

   This job aid is designed to assist ethics officials in determining whether a~ employee should file a Confidential Financial
   Disclosure Report (OGE Form 450). Some Special Government Employees and Schedule C employees may also be required to file
   confidential financial disclosure reports. If you have questions about the criteria listed below, contact your agency 's Ethics Office.


   I. Pay

       1.   0 Is the employee's position classified at or below the GS-15                         DYes                      DNo




                                                                                                                            •
            level?

                OR

           0 If the employee is not paid on the GS scale, is the employee's
       rate of basic pay less than 120% of the minimmn rate ofbasic pay for                   Go to question 2.      Your agency's Ethics
       the GS-15 level?                                                                                              Office will determine
                                                                                                                     if this employee must
            For 2009, this means that the employee's rate of basic pay is less than                                  file a public financial
       $117,78 7.20. Basic pay does not include locality payments, bonuses, etc. For                                     disclosure form.
       reemployed annuitants, the rate of basic pay is the employee's basic pay before
       any salary offset is applied.


   II. Type ofW ork Done By the Employee

       2.   Does the employee's work involve at least one of the following:                       DYes                      DNo
            D contracting or procurements above $2,500;

                     Example: A GS-7 Office Automation Clerk is issued a purchase             Go to question 4.        Go to question 3.
                     card to buy office supplies for her work unit as needed. Such an
                     employee is generally excluded from filing.

            D administering, awarding, monitoring, or making determinations
            regarding grants, subsidies, licenses, or other federal benefits;

            D    regulating, auditing, or inspecting non-federal entities*;

            D performing other activities, when those activities will have a direct
            and substantial effect on the financial interests of non-federal entities.

            *Non-federal entities include, for example, businesses, non-profit
            organizations, and state and local governments.


       3.   Is the employee serving in any other position where there is a                        DYes                      DNo




                                                                                                                            •
            potential for conflict of interest, appearance of favoritism or loss of
            impartiality?

            Examples include:

            D    investigating or prosecuting violations of criminal or civil law;            Go to question 4.       If you said "no" to
                                                                                                                     questions 2 and 3, the
            D    representing the United States in litigation or other proceedings;
                                                                                                                      employee does not
            D scientific or social science research, when the research will have a                                        need to file.
            direct and substantial effect on the fmancial interests of non-federal
            entities.




                                                 25
                                    SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED




   4. Does the employee:                                                                  D Yes                   D No



                                                                                          •
       D only provide information?
               Examp le: A GS-13 librarian for the Patent and Trademark Office
               (PTO) shows PTO staff members how to research the uniqueness
               of an invention and design complex search queries of the
                                                                                     The employee does        Go to question 5.
               agency's electronic databases. The librarian does not make
                                                                                      not need to file a
               decisions on the patentability of the invention.
                                                                                    confidential fmancial
         OR
                                                                                      disclosure report.
       D only work on administrative or peripheral matters?
               Example: A draftsman prepares the drawings to be used by an
               agency in soliciting bids for construction work on a bridge. He is
               not involved in the contracting process associated with the
               construction.

               Example: An agency has just hired a GS-5 Procurement Assistant
               who is responsible for typing and processing procurement
               documents, answering status inquiries from the public,
               performing office support duties such as filing and copying, and
               maintaining an online contract database. The Assistant has no
               actual contracting or procurement responsibilities.

III. Employee's Level of Responsibility

   5. Does the employee:                                                                  DYes                    D No




                                                                                                                  •
      D engage in the work activity identified in Section II by exercising
      significant judgment in performing any of the following job functions?

               D making decisions;
               D approving or disapproving;                                           Go to question 6.      The employee does
                                                                                                              not need to file a
               D making recommendations;                                                                    confidential fmancial
                                                                                                              disclosure report.
               D conducting investigations;
               D rendering advice or opinions.
          OR
       D actively supervise a subordinate's performance of any of the above-
       listed job functions?


   6. Does the employee receive substantial supervisory review?                           D Yes                   D No



                                                                                          •
               Example: A GS-13 employee at an independent grant making

                                                                                                                ~
               agency conducts the initial agency review of grant applications
               from nonprofit organizations and advises the Deputy Assistant
               Chairman for Grants and Awards about the merits of each                                                '   I

               application. Although the process of reviewing the grant              The employee does      The employee should
               applications entails significant judgment, the employee's analysis     not need to file a      file a confidential
               and recommendations are reviewed by the Deputy Assistant             confidential fmancial    financial disclosure
               Chairman, and the Assistant Chairman, before the Chairman              disclosure report.             report.
               decides what grants to award.



                                                                2




                                         26
                            SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Appendix C –Office of Ethics and Financial Disclosure
Instructions to Initial Reviewers of Financial Disclosure
Forms
L/EFD requested that initial reviewers check reported financial interests for completeness and
identify any that might potentially conflict with the filer’s official duties.

   •   Do/could any of the filer’s official duties affect the listed assets or interests, outside
       positions and/or agreements/arrangements?
   •   Did the filer adequately name the reported assets? An asset name of “stock,” mutual
       fund,” or “Fidelity investments” is not specific enough.
   •   Did the filer report his/her spouse’s assets and income? If the filer reported that his
       spouse is employed or is a partner or member of a firm, did the filer also report retirement
       benefits?
   •   Did the filer report private or non-government employment? If so, did the filer report any
       post-employment arrangement or agreement such as severance pay or continuing
       ownership of a 401(k) plan?
   •   If the initial reviewer is aware that the filer received reportable gifts during the reporting
       period, are they reported?
   •   If the filer has any part-time, nongovernment employment, did (s)he report it?
   •   Has the filer mentioned leaving government employment? If so, did the filer report a
       future employment agreement?
   •   Is there anything reported that you question, think is incomplete, or will keep you from
       conducting an accurate and thorough initial financial conflict of interest review?




                                       27
                          SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

         CONTACT THE
 OFFICE OF INSPECTOR GENERAL
            HOTLINE
      TO REPORT ILLEGAL
   OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
      Arlington, VA 22219




SENSITIVE BUT UNCLASSIFIED
